<html>
<title> - EXAMINING TSA'S GLOBAL EFFORTS TO PROTECT THE HOMELAND FROM AVIATION THREATS AND ENHANCE SECURITY AT LAST-POINT-OF-DEPARTURE AIRPORTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING TSA'S GLOBAL EFFORTS TO PROTECT THE HOMELAND FROM AVIATION 
    THREATS AND ENHANCE SECURITY AT LAST-POINT-OF-DEPARTURE AIRPORTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

                           Serial No. 114-47

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
21-157 PDF                     WASHINGTON : 2016                         
                               
_________________________________________________________________________________________                               
 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  
                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                                Witness

Mr. Joseph P. Terrell, Deputy Assistant Administrator, Office of 
  Global Strategies, Transportation Security Administration, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Joseph P. 
  Terrell........................................................    21

 
 EXAMINING TSA'S GLOBAL EFFORTS TO PROTECT THE HOMELAND FROM AVIATION 
    THREATS AND ENHANCE SECURITY AT LAST-POINT-OF-DEPARTURE AIRPORTS

                              ----------                              


                       Tuesday, December 8, 2015

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:12 p.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Rogers, Rice, and Keating.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation Security, will come to order.
    The subcommittee is meeting today to have its 10th hearing, 
I believe it is, our 10th hearing of the season to examine 
TSA's global efforts to protect the homeland from aviation 
threats and enhance security at last-point-of-departure 
airports.
    Now, according to media reports, our allies in the United 
Kingdom believe that the Metrojet flight--I am sorry--I now 
recognize myself for an opening statement.
    The recent Metrojet crash over the Sinai peninsula is 
tragically reminiscent of the 1988 Lockerbie bombing, which 
took down PanAm Flight 103, killing all aboard, including 35 
Syracuse University students traveling home for the holidays. 
It also claimed the lives of one of my best friend's sisters 
who went to Oswego State University.
    Now, according to the media reports, our allies in the 
United Kingdom believe that the Metrojet flight was brought 
down by the very same type of device used in the Lockerbie 
bombing. It is deeply disturbing to me that innocent people 
from my district in Syracuse, as well as all of the traveling 
public, may still be threatened today by the same type of bomb 
used over 27 years ago.
    Even though this most recent attack was not targeted at 
American citizens or an American aircraft, we cannot and should 
not hesitate to learn from this tragedy and identify ways in 
which we can mitigate such threats from becoming successful 
again in the future.
    The international aviation system represents our modern 
globalized world. However, with interconnected transportation 
systems come interconnected risk. Much like the Lockerbie 
bombing affected my community in Syracuse all those years ago, 
the Metrojet tragedy affects our security as well. We cannot 
afford to ignore potential security lessons from this incident.
    Today, the Subcommittee on Transportation Security is 
holding this hearing to better understand the size and scope of 
TSA's global programs aimed at securing international aviation, 
as well as recent efforts to enhance security at overseas 
airports with direct flights to the United States.
    The recent tragic bombing of the Metrojet flight, which 
killed all 224 people on board, reminds us once again of the 
attractive target aviation is for terror groups. Additionally, 
if this attack was indeed carried out by the ISIS, as has been 
claimed, it represents a shift in the threat landscape against 
aviation and a newfound capability for ISIS in carrying out 
attacks.
    Because of this, TSA's overseas mission is now more 
important than ever. It is critical that this subcommittee 
understands the extent of TSA's global reach, as well as how 
the U.S. Government is working with its foreign partners and 
aviation stakeholders to enhance security at overseas airports.
    Moreover, efforts by other entities such as the 
International Civil Aviation Organization, which plays a vital 
role in setting aviation security standards world-wide, are an 
essential component in proliferating security best practices 
and building capacity at high-risk airports around the world.
    Since the Lockerbie terror attack, we have seen a number of 
attempted attacks against U.S. aviation targets. These plots, 
such as 9/11, the Christmas day bomber, the printer-cartridge 
bombs, and the shoe bomber, have each caused massive 
reevaluations in the way passengers are screened and security 
is maintained.
    I am very happy to see that TSA has taken steps to increase 
security at overseas airports in recent weeks and I applaud 
their swift efforts in doing so. I hope these efforts will be 
successful.
    However, there remain gaps in security which need to be 
addressed. Specifically, this subcommittee has worked intensely 
throughout the 114th Congress to shed light on the serious 
lapses in security vetting among aviation workers with access 
to secure and sensitive areas of airports.
    Additionally, I remain very concerned at the overall state 
of airport access controls. We cannot solely focus on shuffling 
passengers through security screening, while ignoring open back 
doors at airports.
    This subcommittee understands these vulnerabilities, which 
is why we have passed a number of bills, including two of my 
own, to close gaps in aviation worker vetting and enhance the 
security of airport access controls across the United States.
    These bills, together with our other oversight efforts, are 
bringing critical attention to a very important issue. These 
recent terrorist attacks in Egypt, Paris, Mali, and Lebanon 
reminded all of us in Congress of the important responsibility 
we have to the American people to ensure that their Government 
is working to keep them safe from a wide array of determined 
and focused adversaries who are hell-bent on threatening our 
lives and way of life by terrorizing our cities and skies.
    It is with this sober understanding that we meet today to 
discuss efforts to secure overseas airports and international 
aviation.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentlewoman from New York, Miss Rice, for any 
statement she may have.
    Miss Rice. Thank you, Mr. Chairman. Thank you for convening 
this hearing.
    I also want to thank Deputy Assistant Administrator Terrell 
for coming to talk with us about TSA's efforts to secure 
international flights traveling to the United States from last-
point-of-departure airports abroad.
    As we all know, on October 31 of this year, Metrojet Flight 
9268 crashed over Sinai, Egypt after departing from Sharm el-
Sheikh International Airport en route to Russia. Multiple 
sources have confirmed that a bomb smuggled on-board the 
aircraft caused the crash, killing 224 people.
    Although Sharm el-Sheikh is not a last-point-of-departure 
airport in which U.S. carriers and TSA work, there have been 
reports that security within the airport was weak and those 
security concerns contributed to Britain's decision to suspend 
all flights to and from Sharm el-Sheikh in the immediate 
aftermath of the crash.
    The attacks in Paris and the shootings last week in 
California are the latest tragedies to remind us that the 
threat of terrorist attacks is very real and the risk is very 
high right now. The Metrojet bombing is a reminder that 
commercial flights are still a major target for terrorism.
    We have to be going above and beyond right now in our 
efforts to protect the American people. Part of that effort 
includes making sure that international airports with flights 
bound for the United States are fully complying with all 
aviation security standards and that TSA and all relevant 
parties share all information about terrorist threats and 
security concerns.
    There are currently 308 last-point-of-departure airports in 
the world, and every day more than 2,000 flights travel from 
foreign countries to the United States. TSA's Office of Global 
Strategies operates throughout Europe, Asia, Africa, and Latin 
America, and TSA representatives operate in countries with 
airports deemed critical to our National security.
    OGS recurrently certifies these airports by conducting 
security assessments and has deemed them low-risk for out-bound 
flights to travel directly to the United States. They are on 
the ground annually conducting more than 120 foreign airport 
assessments, 1,800 air carrier inspections, and 700 foreign 
repair station audits.
    It seems that OGS's methods are working efficiently, but we 
cannot afford to get comfortable or complacent right now 
because, again, the Metrojet bombing is all the indication we 
need to know that there are terrorist groups and radical 
individuals targeting commercial aviation.
    Mr. Terrell, in your written testimony, you mentioned the 
security directives and the emergency amendments that were 
coordinated at 8 last-point-of-departure airports in response 
to the Metrojet crash. I am eager to hear more about the 
measures taken in response to this crash, although I know we 
will have to have that discussion in a secure setting.
    I appreciate Administrator Neffenger acting quickly to 
issue needed directive amendments that will help eliminate any 
perceived vulnerabilities at last-point-of-departure airports.
    I am pleased to know that OGS participates in multilateral 
forums with the International Civil Aviation Organization, the 
Asia Pacific Economic Cooperation, and many others. I think 
this collaboration is a testament to the fact that 
international aviation security is an on-going, inclusive 
effort, and that your office is being proactive with your 
approach to enhancing security on international flights.
    Mr. Chairman, thank you again for convening this hearing. I 
look forward to a productive conversation today, and I yield 
back the balance of my time.
    [The statement of Miss Rice follows:]
               Statement of Ranking Member Kathleen Rice
                            December 8, 2015
    Thank you, Mr. Chairman. And thank you for convening this hearing.
    I also want to thank Deputy Assistant Administrator Terrell for 
coming to talk with us about TSA's efforts to secure international 
flights traveling to the United States from last-point-of-departure 
(LPD) airports abroad.
    As we all know, on October 31 of this year, Metrojet Flight 9268 
crashed over Sinai, Egypt after departing from Sharm el-Sheikh 
International Airport en route to Russia. Multiple sources have 
confirmed that a bomb smuggled on-board the aircraft caused the crash--
killing 224 people.
    Although Sharm el-Sheikh is not a last-point-of-departure airport 
in which U.S. carriers and TSA work, there have been reports that 
security within the airport was weak. And those security concerns 
contributed to Britain's decision to suspend all flights to and from 
Sharm el-Sheikh in the immediate aftermath of the crash.
    The attacks in Paris and the shootings last week in California are 
the latest tragedies to remind us that the threat of terrorist attacks 
is very real and the risk is very high right now--and the Metrojet 
bombing is a reminder that commercial flight are still a major target 
for terrorism.
    We have to be going above and beyond right now in our efforts to 
protect the American people--and part of that effort includes making 
sure that international airports with flights bound for the United 
States are fully complying with all aviation security standards, and 
that TSA and all relevant parties share all information about terrorist 
threats and security concerns.
    There are currently 308 last-point-of-departure airports in the 
world, and every day more than 2,000 flights travel from foreign 
countries to the United States. TSA's Office of Global Strategies (OGS) 
operates throughout Europe, Asia, Africa, and Latin America. And TSA 
representatives operate in countries with airports deemed critical to 
our National security.
    OGS recurrently certifies these airports by conducting security 
assessments, and has deemed them low-risk for out-bound flights to 
travel directly to the United States. They are on the ground annually 
conducting more than 120 foreign airport assessments, 1,800 air carrier 
inspections, and 700 foreign repair station audits.
    It seems that OGS's methods are working efficiently, but we cannot 
afford to get comfortable or complacent right now--because again, the 
Metrojet bombing is all the indication we need to know that there are 
terrorist groups and radical individuals targeting commercial aviation.
    Mr. Terrell, in your testimony you mentioned the security 
directives and the emergency amendments that were coordinated at 8 LPD 
airports in response to the Metrojet crash. I'm eager to hear more 
about the measures taken in response to this crash, although I know 
we'll have to have that discussion in a secure setting.
    I appreciate Administrator Neffenger acting quickly to issue needed 
directives and amendments that will help eliminate any perceived 
vulnerabilities at last-point-of-departure airports. I am pleased to 
know that OGS participates in multilateral forums with the 
International Civil Aviation Organization (ICAO), the Asia-Pacific 
Economic Cooperation (APEC), and many others.
    I think this collaboration is a testament to the fact that 
international aviation security is an on-going, inclusive effort and 
that your office is being proactive with your approach to enhancing 
security on international flights.
    Mr. Chairman, thank you again for convening this hearing. I look 
forward to a productive conversation today, and I yield back the 
balance of my time.

    Mr. Katko. Thank you, Miss Rice.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            December 8, 2015
    Thank you Mr. Chairman, and thank you for convening this important 
hearing today.
    I would like to say that our thoughts and prayers remain with the 
individuals who perished aboard Metrojet Flight 9268 in Egypt.
    This terrible act, which multiple sources have now confirmed was 
indeed a bombing, renews concerns regarding international aviation 
cooperation, specifically at last-point-of-departure airports.
    These airports are those in which a flight originates from a 
foreign country, bound for the United States.
    Although Sharm el-Sheikh is not a last-point-of-departure, it is 
alarming that someone was able to board this plane with an explosive 
device--and successfully detonate it to destroy the aircraft--is 
alarming.
    There have been other international aviation incidents that were 
also cause for concern.
    On Christmas day 2009, Abdul Muttalab successfully smuggled an 
explosive device on-board a Northwest Airlines flight from Amsterdam to 
Detroit but failed to detonate it properly before being detained by 
passengers.
    In October 2010, packages mailed from Yemen containing explosives 
hidden inside of printer cartridges were successfully intercepted, but 
not before traveling in cargo holds, and in one instance, aboard two 
passenger planes.
    This latest incident is a stern reminder of how important 
coordination with foreign governments, international aviation 
organizations, and air carriers is to securing aircraft bound for the 
United States from Foreign Airports.
    With that being said, I thank Deputy Assistant Administrator Joseph 
Terrell from TSA's Office of Global Strategies for being here today to 
talk about the important role they plan in international aviation 
security.
    I am interested in learning how TSA shares threat information with 
all parties involved to ensure that responses are appropriate and 
thorough by all parties.
    The Office of Global Strategies works to secure last-point-of-
departure airports and foreign repair stations by working with 
international entities such as the International Civil Aviation 
Organization, as well as through foreign airport assessments and 
foreign air carrier inspections.
    I look forward to your testimony, and yield back the balance of my 
time.

    Mr. Katko. We are pleased to have a distinguished witness 
before us today on this important topic.
    This witness is Mr. Joseph Terrell--did I pronounce that 
right? Joseph Terrell, who currently serves as deputy assistant 
administrator in the Office of Global Strategies at the 
Transportation Security Administration. Previously, Mr. Terrell 
served as TSA's Federal security director at the Pittsburgh 
International Airport.
    The Chair now recognizes Mr. Terrell to testify.

STATEMENT OF JOSEPH P. TERRELL, DEPUTY ASSISTANT ADMINISTRATOR, 
     OFFICE OF GLOBAL STRATEGIES, TRANSPORTATION SECURITY 
      ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Terrell. Thank you.
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee, I am pleased to appear before you today to 
discuss the Transportation Security Administration's Office of 
Global Strategies and our efforts to mitigate the international 
aviation security risk to the United States.
    TSA's mission is to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce. 
Within TSA, OGS works with international and domestic partners 
to reduce security risks to international transportation modes. 
OGS coordinates with foreign governments, air carriers, and 
international organizations to implement responses that 
effectively mitigate the likelihood of a successful attack.
    This involves a spectrum of activities to identify risk in 
terms of threat, vulnerability, and consequence and develop 
mitigation plans.
    TSA assesses security at foreign airports served by U.S. 
aircraft operators and at foreign airports serving as a last 
point of departure for foreign air carriers. Under this 
authority, OGS identifies vulnerabilities at foreign locations 
through assessments of airports and inspections of air carriers 
from those airports to ensure they are operating at a minimum 
consistent with the security standards adopted by the 
International Civil Aviation Organization.
    In fiscal year 2015, our transportation security 
specialists performed hundreds of air carrier inspections and 
146 foreign airport assessments touching down in over 125 
countries. We have a range of tools available to compel 
compliance with both agency and international requirements.
    OGS gathers data through foreign airport assessments, air 
carrier inspections, and other operational activities and feeds 
it into our risk methodology framework. We then analyze each 
area of concern to identify high-risk locations, possible 
attack methods, and key risk factors. Locations deemed 
problematic are evaluated with a focus on identifying 
vulnerabilities and root causes, and then to determine an 
appropriate mitigation strategy.
    OGS relies on a variety of tools to mitigate issues 
identified during airport assessments, inspections, and other 
visits. In the event of a specific threat or vulnerability, TSA 
may issue security directives to U.S. air carriers and 
emergency amendments to foreign air carriers for implementation 
at select last-points-of-departure locations.
    Last month, TSA coordinated a global response with internal 
and external partners to develop SDs and EAs related to the 
crash of the Metrojet Flight 9268 in the Sinai peninsula. OGS 
scheduled visits and coordinated inspections to the regulated 
air carriers to verify compliance with the additional measures.
    TSA also focuses on capacity development as a mitigation 
tool. We provide aviation security training to foreign partners 
through a variety of courses in screener supervisory skills, 
preventive security measures, crisis management, basic 
security, cargo security inspections, and train-the-trainer 
programs, among others.
    Additionally, TSA has provided equipment loans valued at 
around $3 million to 12 countries that do not have the 
allocated resources to procure their own equipment.
    Because mitigation measures overseas are implemented by 
each country's own personnel, consistent with their own 
requirements, OGS relies on its internationally-deployed 
workforce to influence key decision makers in foreign locations 
and industry partners to understand the threat, maintain 
awareness of vulnerabilities to the aviation security system 
and encourage the implementation of mitigation strategies.
    Our talented international experts are highly respected and 
have helped establish and elevate globally consistent standards 
internationally. We also conduct extensive outreach and 
engagement at the global, regional, and bilateral levels with 
our international partners, and Administrator Neffenger has 
made these engagements a priority with 3 international trips 
during his first 5 months at TSA.
    OGS works regularly with ICAO to establish and enhance 
baseline international standards for aviation security. TSA's 
engagement is continuous, conducted at the highest 
organizational levels, to discuss on-going security 
vulnerabilities and to promote and share best practices with 
our international partners.
    As Administrator Neffenger commented to the international 
partners at the IATA Aviation Security World Conference in 
Dublin last month, achieving common goals calls for a shared 
approach; one that begins with a serious commitment to 
understanding security threats and then collaborating with one 
another to reduce vulnerabilities across many discrete elements 
of aviation system.
    Thank you for the opportunity to appear before you today to 
discuss TSA's work mitigating in-bound risk to the United 
States from overseas, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Terrell follows:]
                Prepared Statement of Joseph P. Terrell
                            December 8, 2015
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee, I am pleased to appear before you today to discuss the 
Transportation Security Administration's (TSA) Office of Global 
Strategies (OGS) and our efforts to mitigate the international aviation 
security risk to the United States.
    TSA's mission is to protect the Nation's transportation systems to 
ensure freedom of movement for people and commerce. Within TSA, OGS 
works proactively with international and domestic partners to reduce 
security risks to international transportation modes. When a new or 
potential threat or vulnerability emerges, OGS coordinates with foreign 
governments, air carriers, and international organizations to implement 
responses that will effectively mitigate the likelihood of a successful 
attack. This involves a spectrum of activities to identify risk in 
terms of threat, vulnerability, and consequence. Once a threat is 
identified, OGS analyzes the underlying factors and develops mitigation 
plans.
                     identifying the in-bound risk
    Under Title 49 of Chapter 449, United States Code, the Secretary of 
Homeland Security is required to assess security at all foreign 
airports served by U.S. aircraft operators and at those foreign 
airports serving as last-point-of-departure locations for foreign air 
carriers using, at a minimum, the security standards adopted by the 
International Civil Aviation Organization (ICAO). The Secretary's 
authority to do so has been delegated to OGS on behalf of TSA. Under 
this authority, as well as under regulations at 49 C.F.R.  1544.3 and 
1546.3, OGS identifies vulnerabilities at foreign locations through 
assessments of foreign airports and inspections of air carriers that 
fly from those airports.
    To determine the appropriate frequency of the assessment and 
inspection visits, OGS developed a methodology, using the threat, 
vulnerability, and consequence model, to define the risk associated 
with each airport under its jurisdiction. This methodology ensures the 
allocation of OGS assets is based on the likelihood of a location being 
targeted (threat), the protective measures in place (vulnerability), 
and the impact of the loss of that airport's services (consequence). 
Once this is determined, assessments are coordinated by the applicable 
TSA representatives (TSARs) and completed by a team of Transportation 
Security Specialists (TSSs) from 1 of our 6 Regional Operation Centers 
(ROCs) located world-wide.
    In addition, OGS engages in recognition of international programs 
commensurate with TSA's own requirements in the United States, as well 
as interagency initiatives, and screening pilots. These DHS programs--
such as the recognition of National Cargo and National Explosive 
Detection Canine Security Programs, the Customs-Trade Partnership 
against Terrorism (C-TPAT), and the Air Cargo Advance Screening Pilot--
provide TSA with opportunities to identify vulnerabilities at last-
point-of-departure (LPD) airports overseas while also engaging closely 
with domestic and international partners to promote information 
sharing.
    In fiscal year 2015, our TSSs performed 289 air carrier inspections 
and 146 foreign airport assessments. Our commensurability programs also 
continued to thrive, with the recognition of now 40 National Cargo and 
3 National Explosives Detection Canine Security Programs with foreign 
governments, to include the 28 Member States of the European Union.
                      analyzing the in-bound risk
    OGS works to fully gauge the in-bound risk from LPD airports based 
on specific attack methods. This analysis provides valuable insight 
into what mitigation actions would have the greatest impact to reduce 
in-bound risk.
    OGS gathers data through foreign airport assessments, air carrier 
inspections, and other operational activities and feeds it into its 
risk methodology framework. OGS then analyzes each area of concern to 
identify high-risk locations, possible attack methods, and key risk 
factors. LPD locations deemed to be highly vulnerable or high-risk are 
further analyzed through a review process that involves subject-matter 
experts within OGS. This entire process enables OGS to evaluate the key 
risk drivers with a focus on identifying vulnerabilities at that LPD 
location and their associated root causes to determine the appropriate 
mitigation strategy.
                      mitigating the in-bound risk
    OGS has a variety of tools available to mitigate issues identified 
during airport assessments, air carrier inspections, or other visits. 
Options range from providing on-the-spot correction recommendations, 
conducting formal training, and recommending enacting a Public Notice 
stating that the airport does not implement adequate security measures, 
or suspending service entirely. These last two responses are usually 
considered when all other attempts have failed in assisting the airport 
or host government to improve security. When a specific threat is 
identified or significant vulnerabilities warrant additional and 
immediate mitigation actions, TSA may issue Security Directives (SDs) 
and Emergency Amendments (EAs) for implementation by air carriers at 
selected LPD locations. TSA works diligently to develop appropriate 
regulatory language for the SDs and EAs to address identified 
vulnerabilities and also communicate new policy requirements with 
foreign and domestic partners.
    SDs are regulations issued to mitigate threats posed to 
transportation for U.S. airport and aircraft operators, and EAs are 
issued to foreign air carriers. These regulations apply to all U.S. air 
carriers operating anywhere, foreign air carriers operating to or from 
the United States and U.S. airport operators. SDs and EAs are intended 
to mitigate security-related risks against civil aviation. 
Additionally, TSA may issue information circulars to regulated parties 
to share security concerns.
    Last month, OGS coordinated with internal and external partners to 
develop SDs and EAs related to the crash of Metrojet Flight 9268 in the 
Sinai Peninsula at 8 LPDs in the region. Following issuance of these 
SDs and EAs, OGS conducted visits or inspections to the regulated air 
carriers at the applicable last-point-of-departure airports to verify 
compliance with the additional measures. Follow-up inspections will 
allow TSA to continue to assess continued compliance and whether any 
additional or modified measures are necessary in light of evolving 
threats. As with other vulnerability-driven SDs and EAs, the results of 
these visits will enable TSA to determine if the mitigation actions 
were successful.
    Another important part of OGS's mitigation efforts is capacity 
development. OGS provides aviation security training to foreign 
partners through a variety of courses in screener supervisory skills, 
preventative security measures, crisis management, basic security, 
cargo security inspections, and train-the-trainer programs, among 
others. In addition, TSA provides equipment loans to those countries 
that do not have the allocated resources to procure their own 
equipment. Often, OGS works in conjunction with its international 
partners, such as Australia or the United Kingdom, to provide training 
or equipment to countries where we have mutual operations.
    Because mitigation measures overseas are implemented by each 
country's own personnel, OGS relies on its internationally-deployed 
workforce to influence key decision makers in foreign locations and 
industry partners to understand the threat, maintain awareness of 
vulnerabilities to the aviation security system, and encourage the 
implementation of mitigation strategies. Our TSARs provide on-site 
representation at U.S. Embassies and Consulates around the globe. TSARs 
are based in Abu Dhabi, Amman, Bangkok, Beijing, Berlin, Brasilia, 
Brussels, Buenos Aires, Dakar, Johannesburg, London, Madrid, Manila, 
Mexico City, Miami, Nairobi, Nassau, Ottawa, Panama City, Paris, Rabat, 
Rome, Singapore, Sydney, The Hague, Tokyo, and Warsaw. The TSARs all 
have regional responsibilities in addition to their duty post 
assignment. International Industry Representatives, also located in 
Embassies and Consulates around the world, serve as TSA's primary 
representatives to regulated non-U.S. air carriers and U.S. aircraft 
operators that serve international airports.
    OGS also conducts extensive outreach and engagement at the global, 
regional, and bilateral levels with our international counterparts. OGS 
collaborates on mitigation measures to counter existing threats as well 
as new and emerging threats. Specifically, OGS works with the 
International Civil Aviation Organization (ICAO) to establish and 
enhance baseline international standards for aviation security. As the 
U.S. Government's representative to the ICAO Aviation Security Panel of 
Experts, TSA works with other international representatives to shape 
international aviation security standards on important issues such as 
cargo security and the coordination of capacity development. TSA also 
engages international air carriers and aviation stakeholders, such as 
the International Air Transport Association, Airlines for America, the 
American Association of Airport Executives, and Airports Council 
International, or in forums like the Asia-Pacific Economic Cooperation 
and the North American Aviation Trilateral. TSA's engagement is 
continuous, and includes the highest organizational levels: For 
example, Administrator Neffenger recently visited his counterparts in 
London, Amsterdam, and Tel Aviv to discuss on-going security 
vulnerabilities and to share best practices with our international 
partners.
                               conclusion
    Thank you for the opportunity to appear before you today to discuss 
TSA's work mitigating in-bound risk to the United States from overseas. 
We are constantly looking at more effective ways to improve and enhance 
the international aviation security arena to ensure the freedom of 
movement for people and commerce in an ever-evolving threat 
environment. I look forward to answering your questions.

    Mr. Katko. Thank you, Mr. Terrell, and I very much 
appreciate your testimony here today. We are in the midst of 
voting hell, I think, today, from it looks like, a bunch of 
procedural votes are being called repeatedly. So we are 
probably going to be interrupted.
    We are going to be interrupted in about 10 minutes to have 
to go and vote. But we are going to get through a couple rounds 
of questioning first, if we can.
    I now recognize myself for 5 minutes of questions. Mr. 
Terrell, I just want to--I will jump right into it, I was going 
to have you give me more of a background, but given the time 
constraints, I want to jump right into it.
    The security assessments, if I understood your testimony 
correctly, and the mitigation decisions are done by each 
country where their airport is located, correct?
    Mr. Terrell. Each country has an obligation under 
international agreement to ensure the security measures in 
their countries are consistent with international standards.
    Mr. Katko. So basically, there are minimum international 
standards by which these countries are supposed to meet them, 
correct?
    Mr. Terrell. That is correct.
    Mr. Katko. Did that includes Sharm el-Sheikh, just by 
curiosity?
    Mr. Terrell. It does.
    Mr. Katko. Okay. It is clear that they were not meeting 
those standards in retrospect?
    Mr. Terrell. It is easy to draw that conclusion.
    Mr. Katko. What happens when an airport is not meeting the 
standards? What punitive measures, if any, can be taken?
    Mr. Terrell. There are a number of things, and I think it 
is important to draw a distinction of the types of 
vulnerabilities and threats that we address.
    First is when the threat is such that there aren't existing 
countermeasures in existence to deal with it. What we do then 
is work with our international partners to craft 
countermeasures, often reflected in SDs and EAs, to address 
that.
    The second are instances in which there are countermeasures 
that we believe are sufficient to address existing threat, if 
indeed they are implemented to the degree they are supposed to. 
I think, based on what we understand in the Sharm el-Sheikh 
case, that, had the procedures been properly implemented, that 
there may have been a different outcome.
    So that shapes our response to try to work with foreign 
partners to assist Egyptians, or in other cases provide 
opportunities for them to be able to actually implement 
appropriately the countermeasures.
    Mr. Katko. One of the concerns I have is that we 
shouldn't--and I am not impugning TSA at all, but I don't think 
we should be in a position of waiting until something happens, 
then we realize there is a vulnerability, and then we act 
accordingly.
    Mr. Terrell. Yes, and most certainly, if I may, we do not 
do that, and, again, as I pointed out, in the past year alone, 
we visited 125 airports, and we are indeed in the vulnerability 
assessment business.
    We do have a very robust means to compel compliance to the 
international standards. Technically, given the authority that 
is presented to us by statute, with the concurrence of the 
State Department and the Secretary of Homeland Security, if we 
are concerned to the degree that conditions at a particular 
airport represent a risk to the traveling public, we could--or 
the U.S. Government has the ability to go to prohibit 
operations between that country and the United States.
    Mr. Katko. Have they ever done that in the past?
    Mr. Terrell. It has happened a couple times in the past. 
Not recently.
    Mr. Katko. Is there something that we can do legislatively 
that could help you--give you more freedom to do that more 
easily?
    Mr. Terrell. I think, actually, I would trumpet this as a 
success story, that there are a lot of instances in which we 
have been close, but given the resources, the focus, the 
attention that we present to these areas that have proven to be 
problematic, that we have negated the need to actually--to go 
to that degree.
    That is a last-case scenario, and in many instances, we 
would be able to mitigate it through a various number of means.
    Mr. Katko. Now, as I understand it, TSA does have some 
authority to do assessments of airports internationally, 
correct?
    Mr. Terrell. We have--yes. We--well, yes. We have a 
requirement under statute to conduct assessments anywhere there 
is a U.S. civil aviation interest, and we do do that.
    Mr. Katko. Now, when--and if I understand it correctly, you 
have to give notice of these assessments. Is that right?
    Mr. Terrell. Yes, we do.
    Mr. Katko. All right. So that is part of my concern. Is 
there any way we can fix that so you don't give them so much 
notice?
    Kind of like--I am thinking of internally--when GAO goes 
around, or some of the other ones go around to TSA 
domestically, they don't give them notice that they are doing 
it, and so that--I think that gives you a more genuine feel for 
the security preparedness at the airports and security 
vulnerabilities.
    From that we can craft proper legislation, and patch up the 
holes. But when you go overseas, and you have the--you give 
them notice of--maybe it is a month ahead of time or whatever, 
it gives them opportunity to be on their best behavior when you 
are there, and that concerns me, because that doesn't give you 
an accurate snapshot of the day-to-day activities at the 
airport.
    So is there something we can do to fix that so we can give 
you more--increased ability to do with the randomization that I 
think is really important?
    Mr. Terrell. Yes. I certainly appreciate that question.
    Two things: First and foremost is that, while we have a 
statutory authority to conduct these assessments, our statutory 
authority does not extend into these other states, as--of 
course, as you know--and quite often, there is a bit of 
resistance to what is being perceived as extraterritoriality of 
our requirements.
    But I will point out that--you know, it is almost a sixth 
sense--and I could speak with some authority here, as a 
former--I started off as inspector, many, many years ago, and I 
think inspectors have a sixth sense about what they are seeing 
is actually legitimate, or a horse-and-pony show, as they say, 
or if it is something that we believe is a sustainable 
practice.
    One of the things we do in those cases where we believe 
that what we are seeing is not sustainable and, indeed, just a 
show for us, is we do work--we gain a lot of significance from 
working with the host government in ensuring that, given a--by 
an understanding of the government's--their own oversight 
program, their own training programs, their own regulatory 
requirements--all these things that give us some confidence of 
whether or not what we are seeing operational during these 
periodic visits is indeed sustainable.
    Mr. Katko. Okay. Briefly, then I will--I might--my time is 
up here. But I want to--just one quick follow-up question.
    It would--even if we don't have the ability, legislatively, 
to legislate what other countries do, we do have the ability to 
legislate what our airlines can do.
    So if our airlines are at foreign airports, and foreign 
countries want to do business with us, isn't it fair to say 
that, if we tell that airline, ``if you can't get an agreement 
from their government to allow random security checks at your 
airports by TSA, then you can't do business there,'' I think--
couldn't that solve the problem?
    Mr. Terrell. I would--I am not quite sure I am prepared to 
answer that. I am not--to be perfectly honest. You know, and 
again, I want--I would like to reiterate that I don't think--
part of the reason we have been successful over these--a number 
of years is by operating collaboratively with a lot of these--
our foreign partners.
    You know, I would mention that--25 years ago, that--you 
know, we were the only state conducting these--this activity. 
One of the things that we were often told is that the only 
reason that you are here--being us--is that there is a risk to 
these particular countries, because the United States has a 
civil aviation interest involved.
    In the past 25 years since then, you know, after all the 
incidents you just referred to, but including Australia and 
Bangkok and London and Madrid, we have a lot of partners that 
are emerging that have realized that the path that we chose 25 
years ago is indeed the way to go.
    We have leveraged our leadership and experience--this, in 
seeking collaboration with like-minded partners to join us in 
promoting international standards globally.
    We have been able to create communications and share 
information with a lot of our partners that we were unable to 
do, you know, 10 or 15 years ago.
    So I think we are making a lot of progress in trying to 
garner a coalition of like-minded partners to promote aviation 
security standards internationally. I think we have been very 
much the beneficiaries of that.
    Mr. Katko. Okay. I have more questions, but I am going to 
go for another--we will do another round, most likely. But the 
Chair now recognizes the Ranking Minority Member, Miss Rice, 
for 5 minutes of questions, and then at the conclusion of her 
questions, we will break, we will vote real quick and we will 
come right back and get right at it again.
    Mr. Terrell. Thank you.
    Miss Rice. I think that we can all agree--and I am sure you 
would agree, Mr. Terrell----
    Mr. Terrell. Yes, please.
    Miss Rice [continuing]. That it is in every country, every 
airline, every security agency's best interest to ensure that 
an incident like what happened with the Russian jet does not 
happen in your country, because that could affect your economy, 
it can affect--you know, obviously issues of National security.
    So I think it is probably fair to assume that everyone 
starts from a point of wanting to have a level of inspection 
that they believe is going to be effective to prevent things 
like this from happening.
    I have a question about--I understand, in the aftermath of 
the Metrojet bombing, the last-point-of-departure airport 
security was increased at the last-point-of-departure airport. 
Is that correct?
    Mr. Terrell. Yes.
    Miss Rice. Based on the directive by the--I believe it was 
Secretary Johnson?
    Mr. Terrell. Yes, ma'am.
    Miss Rice. Yes. Now, just out of curiosity, what about the 
airports that fly to last-point-of-departure airports? Are the 
people as in a directing--you know, as a stop along the way, 
not a direct flight, obviously--are the bags, are the 
passengers on that plane re-screened when they get to the last-
point-of-departure airport?
    Mr. Terrell. Yes, they are. Most States--and I say most 
States because there are some geographic locations where that 
isn't the case, but by and large, any airport--any operation to 
the United States that operates through a transit point, we 
require them to be treated as an originating flight. Their bags 
will be screened and passengers will be screened before 
continuing on
    Miss Rice. Where do you--how is the--how are the lines of 
the communication between your agency and agencies of your type 
and other countries vis-a-vis threat levels, country-specific 
issues that are going on, information sharing--how is that all 
done?
    Mr. Terrell. Of course it certainly depends on the State, 
but by and large our community is a relatively small one, and 
to your point that you made earlier, we all have the same 
interest. Any security event, as the Egyptians are aware of 
right now, is incredibly damaging to their economies.
    We have--we are very active in multilateral organizations. 
We have 28 transportation security representatives. They are 
around the world, whose sole job is to foster these 
relationships with our counterparts globally.
    We have a number of sort-of ad hoc groups and so we are 
incredibly engaged with our counterparts. There is a great 
thirst within our community also to share and participate 
collaboratively to the extent that we can. You know, there are 
a great many nations who are in the exact same boat as we are.
    Miss Rice. The Chairman asked you a question about doing 
covert inspections. I, you know, think it is probably a tough 
thing to legislate, but are--do you have--do we have agreements 
with any country on doing things like that? Like what was done 
with TSA recently?
    Mr. Terrell. No, there--it is frowned upon and--if we were 
to conduct any it would be contrary to a lot of States' laws 
for us to do that.
    Miss Rice. No, no, no. I understand that, but I am talking 
about that--that is one of the things that we do here in this 
country to ensure that our aviation system is as safe as 
possible. Do we have conversations with other countries where 
we encourage them to do the same thing?
    Mr. Terrell. I am sorry, I misunderstood. Yes, yes indeed. 
We are aware and, actually, it is not unusual for other states 
to have their own covert programs in place. You know, we find 
it beneficial to the extent that laws permit to be able to 
share and have these discussions. But yes.
    I misunderstood your question, I am sorry.
    Miss Rice. So obviously, it is not just your agency that is 
responsible for inspections and security. I mean, you have 
ICAO, you have got the air carriers, you have got foreign 
governments. Just how is all that coordinated? I mean, all you 
have to do is look back at 9/11 and we see that there was 
certain information that was siloed within various Government 
agencies that probably should not have what we know should not 
have been--well, we know should not have been.
    I think that 9/11 woke us up to the need for more open, 
liberal information sharing between agencies.
    So how--I mean, these are--throw in different countries and 
different procedures and how is--how do you feel about the 
information that you get from other countries that may be 
something that we need to know?
    Mr. Terrell. I am encouraged by the increase, you know, 
just in terms of how all these different entities relate. ICAO, 
I think it is probably fair to say the requirements that they 
have established sort of set the context within which each 
member state operates. States that have like-minded concerns 
and approaches towards aviation security, it is beneficial to 
both parties to share information.
    We, in turn, regulate each of our respective air carriers 
and airport operators consistent with international standards, 
and the regulations--requirements, rather, that each state 
imposes on its regulated entities.
    So it is a logical exchange, but again, the key is to open 
up communication, share information to the degree practicable. 
Most certainly since the threat landscape has changed over the 
past 10 or 15 years.
    Miss Rice. I yield back.
    Mr. Katko. We are going to take a brief recess at this 
time, subject to the call of the Chair. I anticipate it will be 
about 15 minutes. Okay.
    Thank you.
    [Recess.]
    Mr. Katko. The subcommittee is reconvened, and we just were 
awarded with another motion to adjourn--the third one in the 
last hour that has been filed by someone in Congress trying to 
be obstreperous, it appears.
    But in--nevertheless, we have about another 15 minutes of 
questioning we can do, and we will get to as much as we can. 
Seeing no other colleagues here, I am going to go for another 
round of questioning, between myself and Miss Rice and anyone 
else who may appear.
    I wanted to kind of touch on employees at foreign airports, 
before I go back, and if there is time to give you more of an 
overarching analysis of what we can do better over there and 
how we can help you get--make--have better security over there.
    It is my understanding that, at a lot of these foreign 
airports, there are a lot of employees--just like in the United 
States--that are contract employees.
    Correct me if I am wrong, is it fair to say that these 
contract employees are subject to screening standards that are 
implemented by the individual countries--is that correct?
    Mr. Terrell. That is correct.
    Mr. Katko. Okay. Do you--does TSA or the United States have 
any influence whatsoever over those screening procedures?
    Mr. Terrell. We do to a certain degree. It is a requirement 
under ICAO that each state provides background checks to each 
employee at airports and working for air carriers, to the 
extent that is practicable under each state's laws, recognizing 
privacy laws and that type of thing vary from state to state.
    But to the degree that we can influence and leverage 
partnerships with other--our relations with other states to 
encourage states that--to create a robust vetting scheme for 
their employees, we do indeed do that. That is a routine part 
of our assessment activity.
    Mr. Katko. So by the very definition of the standard you 
enunciated, it appears that there are divergent standards based 
on the countries involved.
    I know there is, with respect the United States and our 
Western European allies, because I was over there with a CODEL, 
as was Miss Rice, and we saw first-hand that there was 
differences, part of which, I think, contributed to what 
happened in Paris.
    Their standards--their security standards just aren't as 
high as ours. So that has caused some of the concern we have 
with vulnerabilities at last-point-of-departure airports is--
No. 1 is--you know, you have limited oversight capabilities--at 
least currently--for TSA over there.
    You have, overlaid with that, varying degrees of oversight 
of employees in general, and contract employees in particular. 
The airlines I know--the U.S. carriers--do a great job, I 
think, of taking security seriously. That is obvious.
    But when you have the contract employees--the caterers, the 
people working on the engines, the people--you know, doing the 
things that you should be concerned about--my concern is, how 
do we plug the gap, or can we do anything to try and require 
them to--under the ICAO or anything else to do a better job? 
Because I know some just aren't doing a good job screening 
their employees.
    Mr. Terrell. Yes. There are a number of ways that we can, 
and that we do, do that. One, as I mentioned earlier--I just 
want to restate that, if we do believe the state has a 
deficient or inadequate system of background checks, we remind 
them of their obligation under ICAO, and provide 
recommendations that we believe would help them.
    Second, in terms of bridging gaps when there are 
deficiencies, you know, we do indeed require flight crew, cabin 
crew who fly to the United States to be vetted to our standards 
before they are allowed to fly aircraft or participate in 
aircraft activities to the United States, and we also--as I am 
sure you know--through our secure flight program, vet each and 
every person who flies as a passenger to the United States.
    So I think those--and I will mention one other thing, too--
that if we do not have luck with a host government in trying to 
provide--you know, a more vigorous vetting process, then we can 
define other--levy other requirements on our carriers to put a 
bubble around the operations to the United States, such as make 
sure that there are aircraft guards to ensure there is no 
unauthorized approaching, to make sure that the catering that 
you mentioned is indeed screened and checked before it boards 
aircraft destined to the United States.
    We can--we do require--make those requirements to 
compensate for instances in which were not happy with what 
those governments provides.
    Mr. Katko. Right. I understand. But, for example, 
mechanics. I mean, if a mechanic breaks bad, they could do 
something on an airplane that--a problem that could only 
manifest itself once they are in the air.
    Those are the types of things I am concerned about, is 
finding the needle in the haystack, that lone wolf which is so 
vexing here in the United States, with our higher standards, 
and I worry about it doubly so in foreign countries where their 
standards may not be as high as ours, right?
    So, because of that, it seems to me that we've got to do 
more. I know this is a concern that was enunciated by the 
airline industry. We had a roundtable with them last week, and 
they were certainly concerned about that, amongst other things.
    But that is one thing that they are very concerned about, 
is--you know, different countries have different standards for 
screening, and--you know, you have limited ability to be a 
watchdog internationally, and it seems to me that it really is 
a gaping vulnerability.
    I understand when you say that there are some things that 
are good and you are doing all right with, but it seems to me 
we have got to find ways of not just saying what is okay, but 
how to fix the things that aren't okay, and to me, this is one 
of those things that is not okay.
    So I would be interested in hearing from you, briefly, of 
the concerns you have with the vetting of employees and the 
screening of employees internationally. What can we do to stop 
it, other than what you described--putting a bubble around an 
airplane, type of thing?
    Let's face it, some airports you go to, internationally, 
you have nothing but foreigners--foreign contract carriers--to 
work on the engines. So you can't put a bubble around the 
individual that is working on your engine.
    So how do we try and fix what I see as a security 
vulnerability?
    Mr. Terrell. We can--what we can control are the 
requirements that are in place for aircraft that operate to the 
United States. We have--it is within the FAA purview, but--yes, 
I do believe, for example, using mechanics as an example, that 
they have--that any type of maintenance is done at a FAA-
certified location. There are a number of measures in place.
    I think one of the things that we have had--we were 
starting to really----
    Mr. Katko. I don't mean to interrupt you, Mr. Terrell, but 
I am--it is getting a little frustrating, because you are not 
telling me things that need to be fixed, and I am hearing from 
the airline industry, things need to be fixed.
    So instead of just telling us the good things, tell us 
about the bad things, because that is what we are really here 
to do, is try and help you guys, give you the tools to fix the 
things that need to be fixed.
    Mr. Terrell. Yes. What I was hoping to clarify is that 
there are, you know, just by virtue of the fact that we are 
trying to promote change in locations in which we do not have 
expressed authority, that there are a number of ways that we--
by leveraging partnerships, by working--trying to raise 
standards with international organizations--you know, by 
leveraging partners that may be more influential in other parts 
of the world than we are to try to promote standards.
    We have had--I think we have had a lot of success in--you 
know, again, as I mentioned, by virtue of--you know, our 
leadership internationally, we are resourced, you know, we 
provide--we have been recently providing training to states on 
conducting their own assessment programs.
    So we have a number of different ways, I think, in which we 
have been very creative and very aggressive in trying to 
promote standards internationally.
    Mr. Katko. All right, so according to you, then there is 
nothing else we need to do. Is that right?
    Mr. Terrell. When you say ``we''----
    Mr. Katko. The United States, to help shore up security 
internationally. You have not told us one thing, in all the 
testimony today, of anything that needs to be shored up 
internationally--that we can help you with.
    Is there--if that is the case, there is nothing, just tell 
us that.
    Mr. Terrell. Well, with all due respect, I think what we 
have, really, is just a continuum, on our part, of trying to 
continuously elevate standards.
    Mr. Katko. I understand that. Is there something we can do 
to help you, or do you not need our help?
    Mr. Terrell. I am an operational guy, sir. As far as what 
the Congress can do for us, I would probably best leave to 
others. I mean, I am not--I don't really quite--I haven't 
thought that one through.
    Perhaps I need some time to think about it and get back to 
you.
    Mr. Katko. The Chair now recognizes Miss Rice for 
questions.
    Miss Rice. Sir, in your testimony, you said that your 
office conducted 146 foreign airport assessments----
    Mr. Terrell. Yes.
    Miss Rice [continuing]. In fiscal year 2015. What were the 
outcomes, in general? Were they all satisfactory? Were they all 
passing? Were they--some failing? Did some have to be taken out 
of--you know----
    Mr. Terrell. In almost every instance, there are 
opportunities that--there are--the way we characterize is, 
discrepancies noted.
    Miss Rice. Okay. So give me the top 5 discrepancies that 
you noted in these foreign airport assessments in fiscal year 
2015.
    Mr. Terrell. I would--just off the top of my head, I would 
think that access ID is the----
    Miss Rice. So, people not having it? Losing it and it not 
being reported?
    Mr. Terrell. Just not wearing them. Just not wearing them.
    Miss Rice. Not wearing them?
    Mr. Terrell. Yes. You know, I would think, and if we were 
going to summarize, that there are probably more issues 
associated with access control, more than anything else, which 
is problematic.
    I am not sure that isn't necessarily related to the fact 
that, because of the importance of that in the security airport 
regime, that we pay very close attention to that, too.
    Miss Rice. Okay. Anything deficient about the background 
checks they do for their contract employees in the airports?
    Mr. Terrell. Again, there--we do--there are states that 
are--they would probably, consistent with international 
standards, do employment checks and background checks, and are 
not permitted by their own privacy laws to conduct criminal 
background checks.
    This is something that we work constantly with certain key 
states to try to ensure the importance of them having a keener 
picture on the criminal background of folks that they are 
providing access to secured areas.
    Miss Rice. Do you do a summary of the foreign airport 
assessments you do for every fiscal year?
    Mr. Terrell. We--yes, in terms of results?
    Miss Rice. Yes, yes.
    Mr. Terrell. We most definitely use them for our purposes 
to identify trends.
    Miss Rice. So, what I would like to do is see if you could 
provide the committee with those reports, because the 
Chairman's questions before had to do with what are ways that 
you think that we can help you. It seems to me that the key to 
that is for us to see what your assessment is of foreign 
airports with whom we do business, from an economic standpoint, 
but certainly from a National security standpoint, and a public 
safety standpoint.
    Why don't we take a look at that and see if we can come up 
with ways that, maybe not necessarily through legislation, but 
ways that we might be able to take these assessments that are--
the purpose of which is to ensure that every foreign country 
with whom we do business is actually maintaining a level of--a 
standard of care, if you will, right--that gives us the 
confidence that we can tell our airlines flying to those 
countries, ``You are okay to fly there, and everyone is safe, 
and you should continue, Americans, to travel wherever you want 
to go.''
    Maybe if we could take a look at that report, that would be 
a good starting point. So if you could provide us that, that 
would be great.
    Mr. Terrell. Yes, ma'am.
    Miss Rice. Okay.
    Now, are there currently, as you sit here, any regions or 
countries that you believe require more of a presence from OGS? 
If so, why?
    Mr. Terrell. Yes, I would say absolutely there are. You 
know, part of our--how we allocate resources and ensure that 
the limited number of people that we have are used most 
efficiently is, you know, we definitely have a risk methodology 
in which we gauge vulnerabilities, in particular, specific 
locations.
    Miss Rice. So do you have specific countries that you have 
concerns about or regions?
    Mr. Terrell. Yes, we do.
    Miss Rice. You do. Are you not able to say that in an open 
setting?
    Mr. Terrell. I would prefer not to.
    Miss Rice. Okay. Great. So let me just ask you this, you 
did 146 assessments. How many foreign airports are there?
    Mr. Terrell. Three-hundred-and-something, I think.
    Miss Rice. So is it every other year they can expect to be 
inspected?
    Mr. Terrell. It depends.
    Miss Rice. Or is there a requirement?
    Mr. Terrell. No. What--again, some airports we visit 
quarterly. Some airports we don't visit for a few years.
    Miss Rice. You make the risk assessment?
    Mr. Terrell. Oh, absolutely, yes.
    Miss Rice. Is that a question of--if you had more 
resources, you would do 300-plus assessments a year?
    Mr. Terrell. Not necessarily. I mean, to be perfectly 
honest, there are a number of airports that we have full 
confidence not only in the counter-measures that are in place 
at that location, but also the thoroughness and effectiveness 
of the oversight and the seriousness with which the particular 
government takes these matters. We have a lot of partners that 
view things the exact same way that we do.
    Miss Rice. Okay. I yield back.
    Mr. Katko. Briefly, and then I think we are going to have 
to wrap up here. We can submit the rest of our questions, if 
you agree, Miss Rice, on paper, and we will submit them to TSA 
and ask them to answer them.
    One refrain that I have heard from the airline industry is 
that information sharing subsequent to an incident is good at 
first, and then it seems to tail off. I think that bears itself 
out with respect to the Metrojet incident.
    The airlines learn from the information you give them 
whether or not they think it is important. So I asked them to 
go back to TSA, let them know that--encourage them to continue 
the lines of communication even if they think the information 
they have has nothing to offer. I kind of liken it to the days 
when I was talking to witnesses as a prosecutor. They would not 
tell me some things, and they said, ``Well, I didn't think that 
was important.'' I said, ``Let us decide what is important.''
    So let the airlines decide what is important, and just--any 
information, any tidbits you have either helping or hurting an 
investigation, let them know as soon as you can because they 
can build upon that. I ask that you that, and they asked me to 
convey that message to you as well.
    Mr. Terrell. Will do.
    Mr. Katko. The rest of the information I think we will 
submit in writing. We appreciate your time here today, sir. We 
are sorry for the breaks, but some people are deciding to have 
fun today in Congress by calling these motions to adjourn 
repeatedly, so we are going to have to deal with them.
    Thank you very much.
    The hearing is now adjourned.
    [Whereupon, at 2:13 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for Joseph P. Terrell
    Question 1. What is the Office of Global Strategies involvement in 
assessing risks and creating Emergency Amendments?
    Does OGS have any input for this process?
    Answer. The Transportation Security Administration's (TSA) Office 
of Global Strategies (OGS) provides significant input in the Emergency 
Amendment (EA) process. TSA issues EAs in response to either threat or 
vulnerability concerns. In instances of threat-based EAs, OGS leverages 
its risk analysis to target the application of new requirements. 
Vulnerability-based EAs are derived from OGS' Foreign Airport 
Assessment program. During an airport assessment, OGS inspectors note 
vulnerabilities and provide their observations from the assessments to 
TSA's Office of Security Policy and Industry Engagement to draft and 
issue EAs as warranted. The EAs provide security requirements on the 
air carriers above and beyond what is required in the air carrier's 
current TSA-accepted security program in order to address the 
vulnerabilities and mitigate the risks.
    Question 2. When TSA learns of new vulnerabilities and issues 
emergency amendments and security directives, it is important that the 
relevant entities comply to ensure that airports and aircraft are not 
at risk.
    What is the Office of Global Strategies' role in relaying these new 
measures to last-point-of-departure airports?
    Answer. When Emergency Amendments/Security Directives (EAs/SDs) are 
issued by the Transportation Security Administration (TSA), they are 
relayed to the affected air carriers by TSA's Office of Global 
Strategies' International Industry Representatives (IIRs). The IIRs 
serve as TSA's principal liaisons with air carriers. The IIRs share 
EAs/SDs through direct communications with their industry counterparts. 
Additionally, TSA posts the EAs/SDs on the Homeland Security 
Information Network, an internet portal that allows air carriers to 
access applicable TSA security programs and directives. While EAs/SDs 
are specifically issued to regulated entities, the air carriers, TSA 
understands the importance of information sharing with its foreign 
government partners. The Transportation Security Administration 
representatives (TSARs), which are part of the Office of Global 
Strategies, serve as the principle liaisons with foreign government 
transportation security experts, including those responsible for 
security at international airports. The TSARs are TSA's primary 
interlocutors for threat information, intelligence, vulnerabilities, 
best practices, and other pertinent security issues with foreign 
governments and airports. When TSA issues a threat specific SD or EA, 
the TSARs who cover the applicable region provide their transportation 
security counterparts with the enhanced security measures for 
awareness.
    Question 3. Can you detail for us the process in place to 
disseminate threat information from TSA to air carriers and foreign 
governments that fly out of or operate last-point-of-departure 
airports?
    Answer. The Transportation Security Administration (TSA) shares 
threat information with domestic aircraft operators, foreign air 
carriers, and foreign governments, collaborating closely amongst TSA 
program offices to ensure the information is provided in the most 
efficient and secure means possible.
  <bullet> TSA's Transportation Security Administration representatives 
        (TSARs), which are part of the Office of Global Strategies 
        (OGS), serve as the principle liaisons with foreign government 
        transportation security counterparts. The TSARs are TSA's 
        primary interlocutors for threat information, intelligence, 
        vulnerabilities, best practices, and other pertinent security 
        issues with foreign governments. When TSA issues a threat-
        specific Security Directives (SDs) or Emergency Amendments 
        (EAs), the TSARs who cover the applicable region provide their 
        transportation security counterparts with the enhanced security 
        measures for awareness.
  <bullet> TSA's International Industry Representatives (IIRs), which 
        are part of the OGS, serve as the principal liaisons to U.S. 
        and foreign air carriers conducting international operations. 
        IIRs provide alerts of new threats, address air carrier 
        vulnerabilities, report intelligence and share threat 
        information through direct one-on-one communications with their 
        industry counterparts on both a regular and ad hoc basis. 
        Additionally, IIRs provide their carriers with TSA-issued SDs 
        and EAs, which add supplemental security measures in response 
        to specific and emergent threats.
  <bullet> TSA's Office of Security Policy and Industry Engagement 
        (OSPIE) Industry Engagement Managers provide unclassified 
        teleconference calls and meetings to share information on new 
        and evolving threats with domestic industry stakeholders. 
        Additionally, OSPIE solicits feedback and discusses aviation 
        security matters with domestic industry stakeholders at 
        Aviation Security Advisory Committee (ASAC) and Airlines for 
        America (A4A) Committee meetings. Both committees meet at least 
        4 times a year, but may meet more often according to the 
        agenda.
  <bullet> TSA's Office of Intelligence and Analysis, in coordination 
        with OSPIE and OGS, works directly with cleared security 
        representatives within the aviation industry in passing 
        Classified or Sensitive, proprietary industry information on 
        new or evolving threats to aviation equities. There are 
        multiple communication methods in which the information is 
        passed, to include a Classified computer system, secure 
        telecommunications, and directly via meetings with aviation 
        industry representatives. This information is passed through 
        routine bi-weekly Classified and Unclassified teleconferences, 
        quarterly Classified meetings and ad hoc as needed.
    Threat information is often part of a routine dissemination to the 
various stakeholders for the relevant TSA program offices. As 
appropriate, however, when the threat warrants, the applicable program 
offices coordinate efforts to release information concurrently.
    Question 4. Mr. Terrell, in your testimony, you stated that the 
Office of Global Strategies analyses multiple areas of concern to 
identify high-risk locations and possible attack methods.
    Once an area is deemed as high-risk, what steps are taken to 
mitigate potential risks in that area?
    Answer. Leveraging its risk analysis, the Transportation Security 
Administration's Office of Global Strategies (OGS) continually 
identifies foreign airports where the vulnerability (in particular) and 
risk (in general) are deemed to be high. For each location, a Cross-
Directorate Review (CDR) is conducted that involves the Regional 
Operations Center personnel, including the inspectors who identified 
the vulnerabilities, the TSA representative for that country, the 
International Industry Representatives for each carrier operating 
between the airport and the United States, the Risk Analysis team, the 
Capacity Development team, and OGS senior leadership. Each site is 
discussed in detail and potential courses of action are identified. OGS 
then conducts follow-up assessments and inspections to determine if the 
CDR actions were successful.
    When OGS identifies significant vulnerabilities that warrant 
additional mitigation actions, OGS may issue Security Directives (SDs) 
and Emergency Amendments (EAs) for air carriers to implement at 
selected locations. Following issuance of the SD/EA, OGS uses a number 
of methods--including ad hoc visits or air carrier inspections--to 
verify compliance with these additional measures. This information 
enables OGS to determine whether the SD/EA measures are sufficient and 
whether other tools will be necessary to ensure compliance such as a 
secretarial action which includes: A 90-day action, to give the host 
country time to improve security measures; public notification; 
imposition of operating authority conditions; or suspension of service 
for applicable air carriers operating to/from that location.
    Question 5. Mr. Terrell, in your testimony you stated that when a 
specific threat is identified or significant vulnerabilities warrant 
additional mitigation actions, Security Directives (SDs) and Emergency 
Amendments (EAs) are implemented. How often are these implementations 
made?
    Answer. Some Security Directives (SDs) and Emergency Amendments 
(EAs) are issued immediately due to a potential threat (such as the SDs 
and EAs issued after the crash of MetroJet Flight 9268), while others 
are issued due to a deficiency discovered during an airport assessment 
or other significant concerns discovered that require immediate 
correction. TSA continually solicits feedback from the aircraft 
operators and foreign air carriers--through their assigned 
International Industry Representatives (IIRs) and Principal Security 
Inspectors--and considers any issues raised. Furthermore, TSA's Office 
of Global Strategies and the Office of Security Policy and Industry 
Engagement participate in industry working groups to discuss and 
develop future policy as part of a regular schedule for considering 
changes to required security programs. Below is a breakdown of the EAs 
and SDs issued to foreign air carriers and domestic aircraft operators 
respectively with international flights.

------------------------------------------------------------------------
                                           Total
                                         Number of    Newly     Renewed
                                          Current   Issued in   in 2015
                                          SDs/EAs      2015
------------------------------------------------------------------------
Security Directives....................         28          7         13
Emergency Amendments...................         25          7         14
------------------------------------------------------------------------

    Question 6. What entity within your office is responsible for 
follow-up inspections to ensure these directives and amendments are 
being followed?
    How often are the follow-up inspections performed?
    Answer. Initial and follow-up inspections are conducted by the 
Transportation Security Administration's (TSA) international inspector 
cadre out of the 6 TSA Regional Operations Centers. Follow-up 
inspections are conducted shortly after implementation of emergency 
measures to ensure the regulated entities are fully compliant. As 
appropriate, TSA's Office of Global Strategies (OGS) will deploy its 
inspectors again to conduct further follow-up. As part of OGS' regular 
compliance schedule, inspections are conducted in accordance with the 
risk-based methodology established by the Office of Global Strategies, 
which determines frequency of visits based on various factors, to 
include: Frequency of flights out of a particular location, security 
concerns at the last point of departure or other intelligence-driven 
factors.
    Question 7. Mr.Terrell, if an LPD airport fails an assessment and 
neither the airport or host government can absorb the cost associated 
with correcting the cause of failure, what happens to the airport?
    Is the air carrier responsible for the costs?
    Answer. The Transportation Security Administration's (TSA) Office 
of Global Strategies (OGS) will work with the appropriate authorities 
in the host country to address and properly mitigate any identified 
security deficiencies through training, instruction, or capacity 
development where resources and political partnership will allow. If 
the assessment of the last-point-of-departure airport results in 
significant findings which indicate that a condition exists that 
threatens the safety and security of aviation transportation to or from 
that airport, the Secretary of Homeland Security in coordination with 
the Secretary of State have the ability to determine whether further 
Secretarial action is warranted. Secretarial action may include: 90-day 
action to give the host country time to improve security measures; 
public notification; imposition of operating authority conditions; or 
suspension of service for applicable air carriers operating to/from 
that location. In locations where resources do not facilitate the 
ability of the host country to absorb the cost of improving security 
measures, it may be incumbent upon air carriers operating from that 
location to absorb costs associated with meeting TSA-issued security 
directives and emergency amendments.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
